<html>
<title> - COMBATING SEXUAL HARASSMENT. IN SCIENCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      COMBATING SEXUAL HARASSMENT
                               IN SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2019

                               __________

                           Serial No. 116-28

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-564PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80f0efc0e3f5f3f4e8e5ecf0aee3efedae">[email&#160;protected]</a>                

             
             COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                        
                        
                        C  O  N  T  E  N  T  S

                             June 12, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written statement............................................     9

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written statement............................................    11

                               Witnesses:

Mr. John Neumann, Managing Director, Science, Technology 
  Assessment, and Analytics, U.S. Government Accountability 
  Office
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. Paula A. Johnson, President, Wellesley College
    Oral Statement...............................................    35
    Written Statement............................................    37

Dr. Jean Morrison, University Provost and Chief Academic Officer, 
  Boston University
    Oral Statement...............................................    46
    Written Statement............................................    48

Dr. Philip Kass, Vice Provost for Academic Affairs and Professor 
  of Analytic Epidemiology, University of California, Davis
    Oral Statement...............................................    54
    Written Statement............................................    56

Discussion.......................................................    61

             Appendix I: Answers to Post-Hearing Questions

Mr. John Neumann, Managing Director, Science, Technology 
  Assessment, and Analytics, U.S. Government Accountability 
  Office.........................................................    86

Dr. Paula A. Johnson, President, Wellesley College...............    90

Dr. Philip Kass, Vice Provost for Academic Affairs and Professor 
  of Analytic Epidemiology, University of California, Davis......    95

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    98

 
                      COMBATING SEXUAL HARASSMENT.
                               IN SCIENCE

                              ----------                              


                        WEDNESDAY, JUNE 12, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10 a.m., in room 
2318 of the Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairwoman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. The hearing will come to order. And 
without objection, the Chair is authorized to declare recess at 
any time.
    Good morning, and welcome to today's hearing. We are here 
today to grapple with a very tough challenge facing the 
scientific community. Sexual harassment and gender hostility in 
the sciences is not new. Women have long endured demeaning 
comments, professional sabotage, unwelcome sexual advances, and 
other offensive and hostile behavior during the course of their 
studies and research. Many have had to abandon their careers 
altogether.
    This is a moral issue, one that demands action to ensure 
women have equal access to their career of choice. It is also 
an issue of our economic and national security. The public 
investment in research needs to draw on all of the Nation's 
talent to return the best possible science for the benefit of 
society. To reach this goal, we must do more to ensure that all 
researchers have access to a safe work environment. It does no 
good to invest in programs to encourage more young girls to 
pursue STEM (science, technology, engineering, and mathematics) 
studies if they end up in a research environment that drives 
them away.
    The historical tolerance of sexual harassment in the 
sciences is deeply rooted in institutional culture. The 
incentive structure within academia encourages a lack of 
transparency and accountability. It does less harm to an 
institution's reputation to allow a bad actor to quietly 
resign, and often move on to another institution, than to do a 
full investigation that may result in a potentially 
embarrassing public finding. Successful researchers also bring 
in large grants for their institution. The loss of these 
researchers, and the funding that comes with them, would be a 
big blow to some institutions.
    The incentive to keep quiet is also strong for the victims. 
It is far easier for a student or an early career researcher to 
keep quiet about her experience than to face the very real 
prospect of retaliation from her harasser and the harasser's 
colleagues.
    In science, students' career prospects rely entirely on 
research advisors. This strong disincentive is illustrated by 
the shockingly low rate of reporting by sexual harassment 
victims at universities. According to the landmark 2018 report 
by the National Academies of Science on this topic, only 6 
percent of graduate students and faculty who are sexually 
harassed formally report their experience to their institution.
    There should no longer be any debate about the prevalence 
of sexual harassment in STEM and its consequences for U.S. 
leadership in science and innovation. The only discussion now 
should be about the most effective ways to address it.
    As the Science Committee, our responsibility lies in 
helping to ensure that Federal science agencies are doing their 
part. I commend the National Science Foundation (NSF) for 
starting this conversation among agencies and taking the first 
bold step with their new reporting requirement. I also commend 
the leadership of the scientific societies and the universities 
who have been trailblazers in taking concrete action and 
sending a clear message of zero tolerance.
    Where you have led, others have followed. Earlier this year 
I was joined by my good friend, Ranking Member Lucas, in 
introducing H.R. 36, the Combating Sexual Harassment in Science 
Act. The bill draws upon recommendations made by the National 
Academies in their 2018 report. The bill also directs science 
agencies to follow NSF's lead by requiring their grantee 
institutions to report incidents of sexual harassment. Finally, 
the bill directs the Academies to conduct a follow-on study and 
to include a section on sexual harassment in its guide on 
responsible conduct research.
    I look forward to hearing from our distinguished panelists 
on what more is needed to make progress on this issue, as well 
as any potential improvements to H.R. 36 that should be 
considered as we move forward.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome to today's hearing.
    We are here today to grapple with a very tough challenge 
facing the scientific community. Sexual harassment and gender 
hostility in the sciences is not new. Women have long endured 
demeaning comments, professional sabotage, unwelcome sexual 
advances, and other offensive and hostile behavior during the 
course of their studies and research. Many have had to abandon 
their careers altogether.
    This is a moral issue - one that demands action to ensure 
women have equal access to their career of choice. It is also 
an issue of our economic and national security. The public 
investment in research needs to draw on all of our nation's 
talent to return the best possible science for the benefit of 
society. To reach this goal, we must do more to ensure that all 
researchers have access to a safe work environment. It does no 
good to invest in programs to encourage more young girls to 
pursue STEM studies if they end up in a research environment 
that drives them away.
    The historical tolerance of sexual harassment in the 
sciences is deeply rooted in institutional culture. The 
incentive structure within academia encourages a lack of 
transparency and accountability. It does less harm to an 
institution's reputation to allow a bad actor to quietly resign 
and often move on to another institution, than to do a full 
investigation that may result in a potentially embarrassing 
public finding. Successful researchers also bring in large 
grants for their institution. The loss of these researchers, 
and the funding that comes with them, would be a big blow to 
some institutions.
    The incentive to keep quiet is also strong for the victims. 
It is far easier for a student or early-career researcher to 
keep quiet about her experience than to face the very real 
prospect of retaliation from her harasser and the harasser's 
colleagues. In science, a student's career prospects rely 
entirely on her research advisor. This strong disincentive is 
illustrated by the shockingly low rate of reporting by sexual 
harassment victims at universities. According to the landmark 
2018 report by the National Academies of Science on this topic, 
only 6 percent of graduate students and faculty who are 
sexually harassed formally report their experience to their 
institution.
    There should no longer be any debate about the prevalence 
of sexual harassment in STEM and its consequences for U.S. 
leadership in science and innovation. The only discussion now 
should be about the most effective ways to address it. As the 
Science Committee, our responsibility lies in helping to ensure 
that Federal science agencies are doing their part. I commend 
the National Science Foundation for starting this conversation 
among the agencies and taking the first bold step with their 
new reporting requirement. I also commend the leadership of the 
scientific societies and the universities who have been 
trailblazers in taking concrete actions and sending a clear 
message of zero tolerance. Where you have led, others have 
followed.
    Earlier this year I was joined by my good friend, Ranking 
Member Lucas, in introducing H.R. 36, the Combating Sexual 
Harassment in Science Act. The bill draws upon recommendations 
made by the National Academies in their 2018 report. The bill 
also directs science agencies to follow NSF's lead by requiring 
their grantee institutions to report incidents of sexual 
harassment. Finally, the bill directs the Academies to conduct 
a follow-on study and to include a section on sexual harassment 
in its guide on responsible conduct in research.
    I look forward to hearing from our distinguished panelists 
on what more is needed to make progress on this issue, as well 
as any potential improvements to H.R. 36 that should be 
considered as we move forward.

    Chairwoman Johnson. Before I recognize Mr. Lucas for his 
opening statement, I'd like to present for the record a 
statement from the American Society of Microbiology in support 
of H.R. 36. And without objection, I place the statement in the 
record.
    The Chair now recognizes Mr. Lucas for his statement.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding 
today's hearing. And thank you to all of our distinguished 
panel participants for being here.
    This hearing continues our Committee's important, 
bipartisan work to combat a culture of sexual harassment in 
science. Sexual harassment and gender discrimination are 
unacceptable in any situation, period. It's wrong, it's 
illegal, and it's imperative that we end it.
    Sadly, combating sexual harassment and discrimination of 
women is an ongoing challenge in workplaces and classrooms 
everywhere. But the science community faces some unique 
challenges when it comes to these issues--both in terms of how 
we address harassment and in terms of the broader consequences 
of this problem.
    Individuals affected by sexual harassment and 
discrimination can suffer long-term harm to their education and 
careers, as well as to their mental and physical well-being. 
While we can't lose sight of the individual cost, we must also 
think about the cost to our society and the economy as a whole.
    Engaging more women in STEM studies and careers is 
essential to America's competitiveness. Women make up half the 
workforce but account for less than 25 percent of America's 
STEM workforce. We cannot afford to compete in the 21st-century 
economy with one hand tied behind our back.
    I'm proud to join Chairwoman Johnson on the very first day 
of the 116th session of Congress in sponsoring H.R. 36, the 
Combating Sexual Harassment in Science Act. This bill has a 
foundation of more than a year of investigation, analysis, and 
recommendations to the Science Committee. That work began last 
year when the Science Committee held the first congressional 
hearing on this subject. We heard disturbing testimony about 
the pervasiveness of sexual harassment and gender 
discrimination in the sciences. Only 23 percent of women who 
earn STEM degrees stay in STEM careers. When that panel of 
experts was asked what was driving women out of STEM, every 
witness said the number one factor was the culture in science.
    Since that hearing, a lot of work has been done to examine 
this problematic culture, determine the extent of the problem 
and to start identifying solutions. Last year, the Committee 
investigated how universities and Federal science agencies 
handle complaints and investigations of sexual harassment. We 
found inconsistency in how different agencies deal with the 
complaints. The Committee also found unclear policies and 
procedures that leave victims unsure of where to turn. And the 
Committee discovered many institutions are more interested in 
checking the boxes of compliance than doing the right thing.
    Last year, the National Academies of Sciences, Engineering, 
and Medicine also issued a consensus report: ``Sexual 
Harassment of Women: Climate, Culture, and Consequences in 
Academic Sciences, Engineering, and Medicine.'' This report not 
only found a high prevalence of sexual harassment in science 
but outlined a number of contributing factors. These factors 
include a perceived tolerance for inappropriate behavior, the 
male-dominated environment in many science departments, power 
structures that concentrate power in a single person who has an 
outsized impact on a subordinate's future success, a culture of 
symbolic compliance with legal requirements, and uninformed 
leadership. The report made a number of policy recommendations 
that we have included in our legislation.
    Finally, the Committee commissioned a study from the 
Government Accountability Office, GAO, to analyze how Federal 
science agencies are ensuring compliance with sexual harassment 
and discrimination laws and managing reports of sexual 
harassment among grant recipients. We will hear the preliminary 
results of that study today, and I hope that the final report 
will make recommendations that drive changes within Federal 
agencies.
    I commend the National Science Foundation for already 
making these changes. Under the leadership of Dr. France 
Cordova, NSF has made new policies to address sexual harassment 
and ensure the safety of all grant personnel supported by 
taxpayer funding. Our legislation proposes that these types of 
policies should be adopted by all Federal science agencies. No 
taxpayer dollars should be awarded to a researcher who engages 
in harassment and inappropriate behavior toward a colleague or 
a student.
    Today's hearing will raise some difficult questions, many 
without easy answers. How do we address these issues while also 
maintaining due process and guaranteeing the rights of the 
victim and the accused? How do we ensure that in mandating 
institutional reporting to Federal science agencies that we 
don't unintentionally discourage women from reporting 
harassment in the first place?
    I hope our witnesses and the other stakeholders can help us 
navigate these questions, help us improve H.R. 36 as it moves 
through the process.
    Again, thank you, Chairwoman Johnson, for holding the 
hearing and working in a bipartisan and collaborative way to 
move this legislation forward.
    And I yield back.
    [The prepared statement of Mr. Lucas follows:]

    Thank you Chairwoman Johnson for holding today's hearing. 
And thank you to our distinguished panel of witnesses for being 
here.
    This hearing continues our Committee's important, 
bipartisan work to combat a culture of sexual harassment in 
science.
    Sexual harassment and gender discrimination are 
unacceptable in any situation. Period. It is wrong, it is 
illegal, and it is imperative that we end it.
    Sadly, combating sexual harassment and discrimination of 
women is an ongoing challenge in workplaces and classrooms 
everywhere. But the science community faces some unique 
challenges when it comes to these issues-both in terms of how 
we address harassment and in terms of the broader consequences 
of this problem.
    Individuals affected by sexual harassment and 
discrimination can suffer long-term harm to their education and 
careers, as well as to their mental and physical well-being. 
While we can't lose sight of the individual cost, we must also 
think about the cost to our society and the economy as a whole.
    Engaging more women in STEM studies and careers is 
essential to American competitiveness. Women make up half of 
the workforce, but account for less than 25 percent of 
America's STEM workforce. We cannot afford to compete in the 
21st Century economy with one hand tied behind our back.
    I was proud to join Chairwoman Johnson on the very first 
day of the 116th Congress in sponsoring H.R. 36, the Combating 
Sexual Harassment in Science Act. This bill has a foundation of 
more than a year of investigation, analysis, and 
recommendations to the Science Committee.
    That work began last year, when the Science Committee held 
the first Congressional hearing on this subject. We heard 
disturbing testimony about the pervasiveness of sexual 
harassment and gender discrimination in the sciences.
    Only 23 percent of women who earn STEM degrees stay in STEM 
careers. When that panel of experts was asked what was driving 
women out of STEM, every witness said the number one factor was 
the culture in science.
    Since that hearing, a lot of work has been done to examine 
this problematic culture, determine the extent of the problem 
and to start identifying solutions.
    Last year the Committee investigated how universities and 
federal science agencies handle complaints and investigations 
of sexual harassment. We found inconsistency in how different 
agencies deal with complaints.
    The Committee also found unclear policies and procedures 
that leave victims unsure of where to turn.
    And the Committee discovered many institutions are more 
interested in checking the boxes of compliance, rather than 
doing the right thing.
    Last year, the National Academies of Sciences, Engineering, 
and Medicine also issued a consensus report: ``Sexual 
Harassment of Women: Climate, Culture, and Consequences in 
Academic Sciences, Engineering, and Medicine.''
    The report not only found a high prevalence of sexual 
harassment in science but outlined a number of contributing 
factors. These factors include a perceived tolerance for 
inappropriate behavior, the male-dominated environment in many 
science departments, power structures that concentrate power in 
a single person who has an outsize impact on a subordinate's 
future success, a culture of symbolic compliance with legal 
requirements, and uninformed leadership.
    The report made a number of policy recommendations, that we 
have included in our legislation.
    Finally, the Committee commissioned a study from the 
Government Accountability Office (GAO) to analyze how federal 
science agencies are ensuring compliance with sexual harassment 
and discrimination laws and managing reports of sexual 
harassment among grant recipients. We will hear the preliminary 
results of that study today, and I hope that the final report 
will make recommendations that drive changes within federal 
agencies.
    I commend the National Science Foundation for already 
making changes. Under the leadership of Dr. France Cordova, NSF 
has set new policies to address sexual harassment and ensure 
the safety of all grant personnel supported by taxpayer 
funding. Our legislation proposes that these types of policies 
should be adopted by all federal science agencies.
    No taxpayer dollars should be awarded to a researcher who 
engages in harassment and inappropriate behavior toward a 
colleague or a student.
    Today's hearing will raise some difficult questions, many 
without easy answers.
    How do we address these issues, while also maintaining due 
process and guaranteeing the rights of the victim and the 
accused? How do we ensure that in mandating intuitional 
reporting to federal science agencies, we don't unintentionally 
discourage women from reporting harassment in the first place?
    I hope our witnesses and other stakeholders can help us 
navigate these questions and help us improve H.R. 36 as it 
moves through the process.Again, thank you Chairwoman Johnson 
for holding this hearing and working in a bipartisan and 
collaborative way to move legislation forward. I yield back.

    Chairwoman Johnson. Thank you very much, Mr. Lucas.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I'd like to introduce our witnesses. Our 
first witness, Mr. John Neumann. Mr. Neumann is the Managing 
Director of GAO's new Science, Technology Assessment, and 
Analytics team. Since 2013, he has led audits in management and 
oversight of Federal research and development programs, 
protection of intellectual properties, and Federal efforts to 
support innovation.
    Mr. Neumann received his B.A. in political science from the 
State University of New York at Stony Brook and holds an MBA 
from American University, as well as a J.D. from Georgetown 
University.
    Our next witness, Dr. Paula Johnson. Dr. Johnson is 
President of Wellesley College and recently co-chaired the 
National Academies' report, ``Sexual Harassment of Women: 
Climate, Culture, and Consequences in Academic Sciences, 
Engineering, and Medicine.'' Previously, Dr. Johnson was the 
Grace A. Young Family Professor of Medicine and Women's Health 
at Harvard Medical School and Professor of Epidemiology at the 
Harvard T.H. Chan School of Public Health. She received her 
B.A., M.D., and MPH degrees from Harvard.
    After Dr. Johnson, Dr. Jean Morrison. Dr. Morrison is 
Provost and Chief Academic Officer at Boston University (BU). 
In this role, she provides the leadership for the University's 
overall academic, budgetary, and planning processes and 
oversight of its academic programs, research, global programs, 
enrollment, and student affairs. She also oversees the academic 
deans of the University's 17 schools and colleges.
    Dr. Morrison received her Ph.D. from the University of 
Wisconsin at Madison, her M.S. from the University of Georgia, 
and her B.A. from Colgate University.
    Our fourth witness is Dr. Philip Kass. Dr. Kass is Vice 
Provost for Academic Affairs at the University of California 
(UC), Davis. Prior to his appointment to this position, he was 
inaugural Associate Vice Provost for Faculty Equity and 
Inclusion. He now works on issues of importance to faculty 
success, including salary equity, enhancing an inclusive and 
safe academic environment, promoting work-life integration, and 
establishing a more diverse faculty.
    He holds five degrees: Bachelor's, master's, and doctorate 
in veterinary medicine; master of science and statistics; and a 
Ph.D. in epidemiology.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When all of you have 
completed your spoken testimony, we will begin the questions. 
Each Member will have 5 minutes to question the panel. We will 
start with Mr. Neumann.

                   TESTIMONY OF JOHN NEUMANN,

       MANAGING DIRECTOR, SCIENCE, TECHNOLOGY ASSESSMENT,

                     AND ANALYTICS, U.S. GAO

    Mr. Neumann. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for the opportunity to be 
here today to discuss our ongoing work on preventing sexual 
harassment in science, technology, engineering, and 
mathematics, or STEM, research.
    As you know, prominent members of the academic community 
who receive Federal research funding have been engaged in or 
accused of sexual harassment. Sexual harassment is not only 
degrading and illegal, studies show it has a negative effect on 
the ability of women to engage in research at the same level as 
men.
    Title IX of the Education Amendments of 1972 prohibits 
discrimination on the basis of sex, including sexual 
harassment, in education programs and activities receiving 
Federal financial assistance. Federal agencies provide billions 
of dollars in research grant funding to U.S. universities each 
year and are responsible for enforcing Title IX compliance at 
the universities they fund.
    My statement today summarizes preliminary observations from 
our ongoing review of selected agency efforts to prevent sexual 
harassment by federally funded research grantees. I will focus 
on three areas: First, Federal agencies' availability of staff 
and budget to address sexual harassment complaints at the 
universities they fund for STEM research; second, Federal 
agency efforts to establish and communicate policies and 
procedures for university grantees on preventing sexual 
harassment; and third, steps Federal agencies have taken to 
promote information-sharing and collaboration among agencies to 
prevent sexual harassment.
    We concentrated our review on five Federal agencies that 
together funded about 80 percent of STEM research from fiscal 
years 2015 to 2017. First, based on preliminary information, we 
observed that the availability of agency staff and budgets to 
address sexual harassment varies across the five agencies we 
looked at. These agencies investigate sexual harassment 
complaints from individuals at grantee universities through 
their civil rights or diversity offices, which also handle a 
wide range of efforts for the entire agency.
    While agencies reported having the resources to handle the 
number of complaints they currently receive, several agencies 
noted challenges in ensuring adequate staffing levels or 
funding the expertise needed for the specialized nature of 
sexual harassment cases. Also, some agencies such as NSF have 
recently seen an increase in sexual harassment complaints and 
are considering the level of resources they will need to 
address them.
    Second, based on the information we've gathered to date, 
the five agencies we're reviewing have established and 
communicated harassment prevention policies to university 
grantees, but they've done so to varying degrees. Specifically, 
three of the five agencies--NASA (National Aeronautics and 
Space Administration), NIH (National Institutes of Health), and 
NSF--have detailed policies and have issued multiple forms of 
guidance to grantees, including grantee policy manuals and 
best-practices documents. In contrast, the other two agencies--
the Department of Energy and USDA (United States Department of 
Agriculture)--have issued general policy statements that do not 
specifically address grantees. We also learned that NSF 
recently modified the terms and conditions of grants to require 
grantees to report sexual harassment, and NASA is planning to 
implement the same requirement by the end of this year.
    For the third area we are looking at based on our 
preliminary analysis, all five agencies have taken some steps 
to promote information-sharing and collaboration to help 
prevent sexual harassment at the universities they fund for 
research. Specifically, these agencies participate in the 
Department of Justice's Title IX STEM working group and discuss 
strategies for conducting joint compliance reviews at 
universities to leverage agency resources and also share best 
practices.
    Despite this collaboration, all five agencies reported 
challenges in obtaining and sharing information on specific 
sexual harassment cases. Agencies told us that they rarely 
learn about instances of sexual harassment from voluntary 
reporting from universities or other Federal agencies and 
instead rely on other sources such as news reports. This 
situation may change at NSF and NASA as they receive 
information from universities based on changes to their grant 
terms and conditions to require reporting of sexual harassment 
findings by grantees.
    In closing, I note that we are continuing our ongoing work 
on this important topic, and we will determine whether 
additional Federal actions may be needed to prevent and address 
sexual harassment in federally funded research when we issue 
our final report later this year.
    This concludes my prepared statement. I'm happy to respond 
to any questions you have.
    [The prepared statement of Mr. Neumann follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much, Mr. Neumann. Dr. 
Paula Johnson.

               TESTIMONY OF DR. PAULA H. JOHNSON,

                  PRESIDENT, WELLESLEY COLLEGE

    Dr. Johnson. Good morning, Chairwoman Johnson, Ranking 
Member Lucas, and Members of the Committee. Thank you for the 
opportunity to testify today on this important topic. I'm the 
President of Wellesley College and a physician, but today, I'm 
here in my capacity as Co-Chair at the Committee of the 
National Academies of Sciences, Engineering, and Medicine that 
authored the report that was released 1 year ago today: 
``Sexual Harassment of Women: Climate, Culture, and 
Consequences in Academic Sciences, Engineering, and Medicine.''
    I've been asked to summarize the findings and 
recommendations from our report, so let me get straight to the 
point. After a thorough review of our research, our committee 
concluded that the cumulative effect of sexual harassment 
includes a negative impact to the integrity of research and a 
costly loss of talent in science, engineering, and medicine, 
which has consequences for advancing the Nation's economic and 
social well-being and its overall public health. We also noted 
that rapid and sustained progress in closing the gender gap in 
science, engineering, and medicine is jeopardized by the 
persistence of sexual harassment in these fields.
    One of the first findings our committee made was that the 
public is generally aware of two of the three types of sexual 
harassment: Unwanted sexual attention and sexual coercion. 
However, the public is often unaware of the third type, which 
is the most common form of sexual harassment. This type is 
known as gender harassment and refers to the verbal and 
nonverbal behaviors that convey hostility, objectification, 
exclusion, or second-class status about members of one gender.
    While we might like to think that gender harassment is less 
damaging than other types of sexual harassment, the research 
actually shows that severe or frequent gender harassment can 
have the same professional and psychological consequences as a 
single instance of sexual coercion, and it is why our committee 
recommends that institutional leaders pay increased attention 
to and enact policies that cover gender harassment.
    The research available on academic environments reveal that 
sexual harassment is common with over 50 percent of women 
faculty and staff and 20 to 50 percent of women students 
experiencing sexual harassment. The research also shows that 
women of color and sexual and gender minorities experience more 
sexual harassment than their peers. Unfortunately, it appears 
that women are often bullied or harassed out of career pathways 
in science, engineering, and medicine. Even when they remain, 
their ability to contribute and advance in their fields can be 
limited as a consequence of sexual harassment either from 
harassment directed at them, the ambient harassment in the 
environment, or from the retaliation they experience after 
formally reporting the harassment.
    The research shows that sexual harassment undermines 
women's professional and educational attainment and their 
mental and physical health. When women experience sexual 
harassment, they often report symptoms of depression, anxiety, 
and posttraumatic stress. They can experience physical effects 
such as exhaustion and sleep disruption, and they experience 
reduced productivity and performance and often end up 
withdrawing from their work in various ways such as stepping 
down from leadership opportunities, opting out of research 
projects, and deciding not to attend professional society 
meetings. It's important to note that these actions are taken 
to avoid their perpetrator and to escape an abusive situation 
because it is the only way they know they can get the behavior 
to stop.
    Our committee found that institutions can take concrete 
steps to reduce and prevent sexual harassment. To do so they 
need to make systemwide changes to, first, create diverse and 
inclusive and respectful environments; second, to improve 
transparency and accountability; third, to diffuse the 
hierarchical and dependent relationship between trainees and 
faculty; and fourth, to provide support to those who've 
experienced sexual harassment regardless of whether or not 
they've courageously spoken up to report their sexual 
harassment experiences.
    Building from our report, the Combating Sexual Harassment 
in Science Act of 2019 addresses many of the recommendations 
that our committee made to Federal agencies and Congress. For 
instance, it directs NSF to fund research on topics our 
committee identified as needing more research. By calling for 
an updated guide on the responsible conduct of research that 
specifically includes sexual harassment issues, H.R. 36 
reflects our recommendation to consider sexual harassment 
equally important as research misconduct in terms of its effect 
on the integrity of research.
    The bill also reflects our recommendations that Federal 
agencies require grantees to report to them when individuals on 
grants have been found to have violated sexual harassment 
policies or have been put on administrative leave related to 
sexual harassment.
    In conclusion, as a medical professional, I want to note 
that our report very clearly shows that sexual harassment in 
academic science, engineering, and medicine is a public health 
problem, and we need to treat it as such. Thank you.
    [The prepared statement of Dr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you, Dr. Johnson.
    Dr. Jean Morrison.

                 TESTIMONY OF DR. JEAN MORRISON,

         UNIVERSITY PROVOST AND CHIEF ACADEMIC OFFICER,

                        BOSTON UNIVERSITY

    Dr. Morrison. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, thank you for inviting me to testify 
this morning. My testimony will focus on two things: One, how 
Boston University is addressing gender-based harassment on 
campus; and two, what legislators can do to help universities.
    I entered the academic world in the 1980s by pursuing my 
Ph.D. in Earth sciences. Like all aspiring scientists, we were 
taught that our science had to be rigorous, exacting, 
objective, and unforgiving in its pursuit of the facts. These 
approaches remain the same today nearly 40 years later.
    But in hindsight it's also clear that we misapplied these 
approaches by extending them to the culture of our workplace 
and to our relationships. We created a tough, unforgiving, and 
unwelcoming workplace environment. No wonder, then, that 
people, especially our more junior students and faculty, felt 
more hazed than helped and that women, feeling the additional 
burden of gender discrimination, fared even worse. But today's 
scientists and engineers are showing my generation that a 
positive culture of inclusion and respect is really the best 
way to achieve truly excellence in science.
    I'm pleased to tell you today what BU is doing to support 
our scholars, but I want to make clear that we are also still a 
work in progress. Yes, our values and our intentions are in the 
right place, but it's our job to match those values with 
concrete actions.
    You're no doubt familiar with the case publicized in 
Science magazine in 2017. A BU Earth scientist was accused of 
harassing and bullying two former graduate students more than 
20 years ago at a field site in Antarctica. Following our 
investigation of the accusations, we initiated a serious 
consequence. The BU scientist lost his tenured position and was 
terminated.
    The case reverberated at BU. We recognized that we needed 
to redouble our efforts to combat gender-based harassment, and 
here's what we're doing. First, we're prioritizing diversity, 
equity, and inclusion. Why do I identify that first? Because 
taking explicit steps to achieve greater gender and racial 
equity in hiring and promotions is essential to creating a 
community that rejects harassment.
    We've changed the tenure clock to include time for parental 
leave, offered childbirth and adoption accommodations for our 
doctoral students, and welcomed our first Associate Provost for 
Diversity and Inclusion. These changes benefit all faculty and 
staff but are especially important for women.
    Second, BU joined the AAAS (American Association for the 
Advancement of Science) STEM Equity Achievement (SEA) Change 
effort with a rigorous self-assessment of our commitment to 
inclusion and equity in STEM and an action plan to address the 
barriers that we identified. Due to this work, we were one of 
three universities to receive the inaugural SEA Change Bronze 
Award.
    Third, BU initiated mandatory online sexual misconduct 
prevention training for our more than 34,000 undergraduate and 
graduate students and our nearly 11,000 faculty and staff.
    Fourth, I created a working group on gender-based 
harassment prevention to deliver recommendations to me on how 
BU can provide an environment that is free of harassment.
    And fifth, BU has joined the more than 55 institutions in 
the National Academies' Action Collaborative. And universities 
are of course foundational to this work, but we do not operate 
alone.
    So thank you to this Committee for introducing the 
bipartisan Combating Sexual Harassment in Academia Act. I 
appreciate many of the bill's provisions, including, first, the 
governmentwide approach to handling sexual misconduct by 
Federal grantees. It's better for all of us in science if there 
is one clear set of rules at the Federal level.
    Two, authorizing the National Science Foundation to fund 
research on gender harassment, so our efforts are data-driven 
and evidence-based.
    I do, however, want to ask the Committee to take a fresh 
look at two things. First, ameliorate potential legal conflicts 
between the bill and existing education employment and civil 
rights laws; and second, to be explicit about what privacy 
protections you envision for this significant new data 
reporting in the bill. We learned that sometimes complainants 
and witnesses in harassment cases only come forward if they 
know their information will not be shared with others.
    So, again, thank you for holding today's hearing. I feel 
this issue very deeply and personally. Today, my daughter is in 
a STEM Ph.D. program, and I want her and every other young 
woman in her generation to have every opportunity to thrive. 
Thank you.
    [The prepared statement of Dr. Morrison follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much, Dr. Morrison. Dr. 
Kass.

                  TESTIMONY OF DR. PHILIP KASS,

              VICE PROVOST FOR ACADEMIC AFFAIRS AND

               PROFESSOR OF ANALYTIC EPIDEMIOLOGY,

                 UNIVERSITY OF CALIFORNIA, DAVIS

    Dr. Kass. Chairwoman Johnson, Ranking Member Lucas, and 
Members of the Committee, it's a privilege to be here today to 
discuss the University of California, Davis' efforts to address 
sexual harassment issues in science.
    The University of California is committed to creating and 
maintaining a community where all individuals can work and 
learn together in a safe and secure environment free of 
harassment and discrimination. Combating sexual harassment and 
fostering a culture of respect and accountability is what the 
10 campuses of the UC system are striving for and has led the 
system to take a strong and public stand against portions of 
the Department of Education's proposed Title IX rule that would 
narrow the definition of sexual harassment and lower the 
standards to which schools are held.
    At UC Davis, we're especially passionate about the issue of 
combating sexual harassment. Fifty-nine percent of our more 
than 30,000 undergraduates are female. In 2012, UC Davis 
received an NSF ADVANCE Institutional Transformation grant to 
increase the participation and advancement of women in academic 
science and engineering careers. And in 2016, Forbes listed UC 
Davis as the number one college for women in STEM.
    In February 2019, UC Davis was one of three universities in 
the United States to receive the inaugural AAAS SEA Change 
Bronze Award certification. UC Davis' innovative hiring 
practices such as offering childcare services to interviewees, 
helping partners find jobs, using contributions to diversity 
statements, and having policies in place to address salary 
equity were among the reasons for UC Davis' selection. I 
mention the AAAS SEA Change award as it was a voluntary self-
assessment and action from UC Davis and reflects our commitment 
to fostering a culture of respect and accountability.
    To further support this commitment, on July 1, 2018, UC 
Davis initiated a pilot program to conduct reference checks on 
final candidates for academic appointments with tenure. The 
pilot reference check program enables UC Davis to obtain and 
review information about candidates' personal conduct in their 
previous academic appointments that may be important to the 
appointment decision. This includes conduct involving gender 
discrimination, sexual harassment, and sexual violence.
    The campus includes a statement in the posting of Senate 
ladder-rank faculty positions with tenure providing notice to 
applicants that UC Davis will conduct reference checks on final 
candidates prior to hiring. The statement highlights the 
University of California's commitment, quote, ``to creating and 
maintaining a community dedicated to the advancement, 
application, and transmission of knowledge and creative 
endeavors through academic excellence where all individuals who 
participate in the university programs and activities can work 
and learn together in a safe and secure environment free of 
violence, harassment, discrimination, exploitation, or 
intimidation,'' unquote.
    Based on this commitment, UC Davis conducts a reference 
check on all finalists for tenured positions. The reference 
check involves contacting the administration of the applicant's 
previous institutions to ask whether there had been 
substantiated findings of misconduct that would violate the 
university's faculty code of conduct.
    To implement this process, UC Davis requires all applicants 
to complete, sign, and upload a form as part of their 
application. If the applicant does not include the signed 
authorization with the application materials, the application 
will be considered incomplete and will not receive further 
consideration.
    Academic Affairs, in consultation with the dean and the 
department chair, will then conduct an individualized 
assessment of any information received, including the nature of 
the conduct, the length of time passed, any corrective action 
taken, and any explanation offered by the candidate. After 
reviewing the information, we will determine whether the 
candidate is still eligible to be considered for the position.
    We have not received any protests about this program from 
faculty applicants or institutions we have contacted. We 
request feedback within 7 days and, in most cases, receive it. 
To date, the pilot has resulted in 14 candidates requiring 
reference checks, 23 academic institutions contacted, 19 
responses received, and 0 instances where discipline was 
provided.
    We believe that potential applicants for faculty positions 
who have been disciplined, upon reading UC Davis' requirement 
for a signed authorization, will be dissuaded from applying. 
The reference check process is therefore likely acting as a 
prescreening deterrent, consistent with our belief that we do 
not want to faculty whose behavior is inconsistent with our 
faculty code of conduct and principles of community.
    Finally, consistent with the language of H.R. 36, we 
believe our reference check program is an intervention for 
reducing the incidence and negative consequences of sexual 
harassment in both the STEM and non-STEM workforces, including 
students and trainees. We believe it's our moral imperative to 
protect our students, as well as all other members of our 
campus community, and so in our minds this modest step is long 
overdue.
    We found no impediments to its implementation, and during 
the second year of the pilot program, we will again review and 
share our findings with other universities at the University of 
California. We expect and hope that other universities around 
the country will want to follow in our footsteps to prevent 
offenders at one university from relocating to another and 
become potentially serial offenders, and we stand prepared to 
help these institutions.
    Thank you for the opportunity to testify today and for your 
continued support for the academic community. I look forward to 
answering your questions.
    [The prepared statement of Dr. Kass follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you, Dr. Kass.
    At this point, we will begin our first round of questions, 
and the Chair recognizes myself for the first round.
    Mr. Neumann, thank you for presenting GAO's preliminary 
findings regarding policies and procedures in place at agencies 
to prevent and address sexual harassment. One finding that 
concerns me is that few agencies in your analysis have 
undertaken efforts to evaluate the effectiveness of their 
policies. Is GAO considering making any recommendations 
regarding agency efforts to assess the effectiveness of their 
policies?
    Mr. Neumann. Yes. As I noted in my statement, none of the 
agencies have currently taken any steps to evaluate the 
effectiveness of their policies. As we noted, there's a variety 
of policies--the agencies are using a variety of policies to 
communicate their sexual harassment efforts, and so we believe 
that there's likely an area that agencies could improve on 
there, and so we're looking at making, you know, some 
recommendations to improve the--that part of the work.
    Chairwoman Johnson. OK. Thank you. Dr. Johnson, the 
National Academies' report found that women of color are at an 
increased risk of sexual harassment relative to their white 
peers. Can you discuss the unique challenges faced by women of 
color who experience sexual harassment in academia and perhaps 
what more we can do to support them.
    Dr. Johnson. Thank you, Chairwoman Johnson. Women of color 
do experience higher rates of sexual harassment compared to 
their peers, and unlike their white peers, there's often the 
sense in the academic environment that they actually don't 
experience harassment. So they're starting from a place of 
tremendous lack of knowledge within academic sciences, 
engineering, and medicine.
    Second is that they are frequently in the minority, so as 
numbers have increased with regard to women in academic 
science, engineering, and medicine, those numbers have not 
commensurately increased for women of color, and therefore, 
there is increased isolation. So there is a sense that, without 
a doubt, creating an environment of inclusion, diversity, and 
one of equity requires increasing the numbers but also 
increasing what is an inclusive environment and paying very 
close attention to that.
    And then last, it is very important that we focus on 
supporting the targets of sexual harassment, making sure that 
they understand that they will be protected from retaliation 
and figuring out and developing strategies for them to report 
in ways that give them more agency. And there are ombudspeople. 
There are online methods of reporting that also allow them 
privacy until they are ready to come forward.
    And last, to make sure that all women, but particularly 
those who are from other minority groups, understand that 
reporting is an act of courage.
    Chairwoman Johnson. Thank you very much. Dr. Kass and Dr. 
Morrison, in February 2019 both of your institutions were 
selected to receive the Bronze Award certification as part of 
the new American Association for the Advancement of Science, 
AAAS, SEA Change initiatives. First, congratulations to both of 
you for that achievement, but then the question, can you talk 
about why your institution chose to pursue the SEA Change award 
and what steps your institution took to earn the recognition? 
And what were your biggest challenges?
    Dr. Kass. Would you like to go first?
    Dr. Morrison. Sure. We chose to pursue it because we 
thought it was an important opportunity to develop a really 
comprehensive database around participation in STEM, and that 
database that was developed as a result of our making the 
application has been extremely useful in helping to guide our 
action steps to follow up. We've been able to identify clearly 
at a department level where representation is--
underrepresentation of women in STEM and underrepresented 
groups is particularly severe so that we can target our actions 
to that. So we saw it as an opportunity to create a database 
that would allow us to use the information to most effectively 
remediate where we have real issues.
    Chairwoman Johnson. Thank you very much. Dr. Kass?
    Dr. Kass. So the AAAS SEA Change program is based upon the 
United Kingdom's Athena SWAN (Scientific Women's Academic 
Network) program, a program that has largely become 
institutionalized in the United Kingdom. We saw this at UC 
Davis as a way to establish baseline information about the 
myriad programs that we have across the campus that we're not 
all even aware of on such a large campus.
    Another advantage of this program is that once we receive 
the award, we become then committed to a series of action plans 
who will hold us accountable over the next 5 years, and we are 
committed to meeting those. This is actually consistent with 
suggestions that were in the National Academies' report as well 
that universities across the United States should participate 
in programs like SEA Change.
    Now, having done that, we also see our responsibility to 
try to share knowledge about the program with other University 
of California campuses and, to an even greater extent, to other 
universities around the country. This helps raise 
consciousness, this helps raise the campus profile. This lets 
everybody know that this is an important issue for all of us 
and that it's not enough to simply rest on our laurels but that 
we want to do even better in the future, and there's built-in 
accountability for that.
    Chairwoman Johnson. Thank you very much. Mr. Lucas?
    Mr. Lucas. Thank you, Madam Chair.
    Dr. Morrison, I'd like to first thank Boston University for 
its cooperation during the Committee's investigation last year. 
From that review, the Committee found the National Science 
Foundation did not have a clear policy on how to deal with a 
grantee when they are placed on administrative leave.
    So I have a two-part question for you. One, could you 
please share how this lack of guidance from NSF tied Boston 
University's hands in taking actions in that case? And then 
once you've done that, follow up, please, with do you feel that 
the NSF's updated grant policies have clarified the process? 
Two parts.
    Dr. Morrison. Sure. To the first part, during the 
investigation when we were trying to determine what the 
appropriate steps were, there were a series of queries from BU 
to NSF, and we were--you know, we asked what are our 
responsibilities here, and we were told don't worry about it 
right now. And so it created a sense of uncertainty about what 
our obligations were. But I would note that we did reach out 
and try to understand what the appropriate steps were.
    What I think was most valuable about it is it really 
revealed that neither we nor NSF knew what the rights steps 
were to take because there's a lot on the line in a situation 
like this. While we want to ensure that we are holding 
individuals who have engaged in gender-based harassment or 
sexual harassment accountable, we also feel very strongly about 
the importance of due process. And so in trying to balance 
those two, the absence of those guidelines just made it very 
much harder.
    And what was the second question?
    Mr. Lucas. The second part was do you feel that the NSF's 
updated grant policies----
    Dr. Morrison. Oh.
    Mr. Lucas [continuing]. Have helped clarify the situation?
    Dr. Morrison. Yes. It's better than it was. I think there 
are still important questions around the precise language about 
when we need to notify Federal agencies, and I think that's 
going to take more discussion. And I think it is an extremely 
important point for the very reason I just cited in that we 
want to make sure that we are both appropriately addressing 
inappropriate behavior but also ensuring that people who are 
accused are entitled to due process.
    Mr. Lucas. Absolutely. Mr. Neumann, from GAO's initial 
findings, what inconsistencies have you found in sexual 
harassment policies for grantees across the five Federal 
agencies that GAO is examining?
    Mr. Neumann. Yes, I think the main inconsistency we saw is 
there are some agencies like NASA, NIH, and NSF that had, you 
know, very detailed policies, they had manuals for grantees, 
they had best-practice documents, and others just had general 
policy statements that didn't specifically address grantees and 
their responsibilities. I think that was the most significant 
difference.
    Mr. Lucas. So in the process of what you're doing now and 
since time has passed, briefly, have there been steps taken to 
coordinate across agencies to develop a uniform Federal policy?
    Mr. Neumann. Well, certainly, the agencies are 
collaborating. As I mentioned in my statement, they collaborate 
through the Department of Justice's STEM working group, and 
they also take on some individual collaboration with each 
other. But that's an area that we want to look at a little more 
closely because we believe that there could be additional steps 
they could take to better collaborate and share information.
    Dr. Morrison was talking about the uncertainty that NSF's 
policy or lack of guidance created for them, and I think that's 
partly due to the fact that the agencies haven't really 
evaluated the effectiveness of their policies to see what is 
working, what--you know, is this effectively reaching the 
grantees so they know what they are required to do?
    Mr. Lucas. And in the time I have left, I turn to my three 
doctors. Would you like to see uniform policy for grantees, and 
what would it mean to your institutions? Yes, that's an open-
ended question, but the floor is yours. Dr. Johnson?
    Dr. Johnson. The answer would be yes. I think that having 
uniform policies and procedures across the Federal funding 
agencies would be extremely beneficial--beneficial to our 
institutions and also beneficial to our grantees.
    Dr. Morrison. I agree, absolutely. It's essential in order 
to facilitate our ability to be effective in working through 
these always complicated situations.
    Dr. Kass. And we concur. Having a uniform policy across all 
Federal agencies would reduce potential errors. In addition, 
many faculty investigators receive funding from multiple 
sources, and so we would ostensibly otherwise be faced with the 
possibility of trying to apply different standards to the same 
individual, so we would welcome a uniform policy.
    Mr. Lucas. Very valid point. With that, I yield back, Madam 
Chair.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici?
    Ms. Bonamici. Thank you, Chairwoman Johnson and Ranking 
Member Lucas, for the hearing, also for your bipartisan 
legislation, which I am proud to support. And to our 
distinguished panel, thank you.
    A few years ago I heard from a talented fisheries biologist 
whose career was basically put on hold--she was conducting 
research on a NOAA (National Oceanic and Atmospheric 
Administration) vessel when she finally reported the 
harassment, which of course she delayed for a long time because 
she was afraid for her career. The scientist, not the 
individual who harassed her, was advised against returning to 
the sea, so she was given a desk job, and her research was 
basically derailed.
    And like with so many other cases of harassment in the 
sciences, the investigation was slow. I finally contacted then-
NOAA Administrator Dr. Kathryn Sullivan, who begin the process 
of really making some tangible changes. They have updated their 
policies. And I noticed NOAA is not one of the agencies in your 
report, Mr. Neumann. They updated their policies and procedures 
for reporting. They began training the NOAA workforce. They 
started to improve the investigation protocol. Fortunately, the 
scientist was able to return to her work, and NOAA has now 
implemented a full-time workplace violence prevention and 
response program manager. I just got an update from them 
yesterday, and they really have taken it seriously. But of 
course we have a lot of work to do.
    And we know of course that this is not just restricted to 
remote areas like a NOAA research vessel. According to the 
comprehensive report, more than 58 percent of individuals in 
academia experienced sexual harassment or gender harassment, 
and it could be more than that because I don't necessarily have 
confidence that everyone is reporting. We're losing a 
tremendous amount of potential when this happens without a way 
to address it.
    Dr. Johnson, you talked about the perceived tolerance for 
sexual harassment in academia. When does that start? And is it 
affecting incoming students and their course choices or major 
choices? Is it affecting faculty and faculty recruitment? Where 
does that start? I'm on the Education Committee, so I'm always 
looking at prevention.
    Dr. Johnson. Well, thank you, Representative Bonamici. And 
our report very clearly states that this is a pervasive problem 
and that it impacts students, trainees, postdoctoral students, 
as well as faculty, so across the board there is significant 
impact.
    So one particular area I'd like to just reference, though, 
in your question or in your statement was the particular issue 
that's experienced by those who are engaged in field site 
research because there is also a problem. Our report clearly 
stated that evidence shows that it's an area where the rates of 
documented sexual harassment are even higher.
    According to the SAFE (Survey of Academic Field 
Experiences) study, which was run by one of our committee 
members Kathryn Clancy, the estimates are about 64 percent of 
those in field sites are experiencing sexual harassment with 
the greatest numbers being amongst female trainees. On those 
sites, both men and women experience harassment. It's 
experienced somewhat differently, but it is a pervasive 
problem. And according to the study, there is a real lack of 
understanding of any codes of conduct, lack of understanding 
how to report, and so it's a particular area, in addition to 
all of the others that we've discussed, where there really 
needs to be attention.
    Ms. Bonamici. Thank you. And I'm going to try to get 
another couple questions in real quickly. Dr. Johnson, in 
addition to Chairwoman Johnson and Ranking Member Lucas' bill, 
the report says treat the legal obligations for addressing 
sexual harassment under Title IX and Title VII as a floor not a 
ceiling. What else do you recommend Congress do?
    Dr. Johnson. Title IX and Title VII really are the base, 
and what has happened is that in many institutions, the 
approach to addressing harassment has been one that's been 
legalistic and one that really looks to only decrease 
liability. It's important that we really focus on the culture 
and the climate in order to prevent harassment. And it is the 
areas that I focused on in my opening statement: Increasing the 
culture of diversity, inclusion, and respect; changing the 
power dynamic in the mentor-mentee relationship; supporting 
targets of harassment; and really improving accountability and 
transparency.
    Ms. Bonamici. Thank you. And I real quickly want to ask Mr. 
Neumann because you brought this up in your testimony about the 
Department of Justice Title IX STEM workgroup meetings, but you 
also suggested in your testimony that the discussions about 
sexual harassment are not happening in those meetings. So do 
you agree that OSTP is the appropriate entity to help provide 
this consistency? What's happening with those conversations if 
sexual harassment is not being discussed in those workgroup 
meetings?
    Mr. Neumann. Well, so I think that it's the emphasis, as 
Dr. Johnson mentioned, is more on compliance with the law. 
That's what the focus of that working group is and how they can 
jointly conduct compliance reviews. So it's all very valuable, 
but it doesn't really get at the broader issues that have been 
raised by the National Academies' report. And that's something 
we definitely want to look at, you know, are agencies' policies 
effective in addressing the larger issue?
    Ms. Bonamici. Thank you. I'm over time. I yield back. Thank 
you, Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. Weber?
    Mr. Weber. Thank you, ma'am. I want to follow up on what 
Congresswoman Bonamici said, Dr. Johnson, if I may. She asked 
you the question where does sexual harassment start, but I want 
to ask you a different question. Where does it end? And here's 
what I mean by that. You talked about in the field there seems 
to be a lack of understanding of codes of conduct, which I find 
astounding because you would think that that should have been 
made obviously apparent in the institutions. And then you said 
there was a misunderstanding or lack of understanding on how to 
report. So if we're going to end this, how do you fix those two 
problems?
    Dr. Johnson. Our report gives a number of recommendations, 
and one particular one is if we look at what training should at 
least include from the knowledge we have now, understanding 
that there's more research to be done in terms of the most 
effective strategies. It's very clear that training that is 
targeted toward particular groups and not just a vanilla 
training across all is indicated. So specific training for 
students, for postgraduate students, for faculty and staff. The 
experience is different across those groups and requires 
different types of training.
    It's also clear that training should not focus on changing 
beliefs but should focus on changing behavior. Often, training 
that is online and brief is focused on really understanding 
some of the rules, which is beneficial, but it really does not 
get at the heart of how we need to change behavior.
    Mr. Weber. Well, that sounds interesting to me that 
training should be focused on not changing beliefs, but if we 
don't encourage people to think differently, some that believe 
they're entitled or believe they can get away with stuff or 
whatever, that seems a little incongruous with what we need to 
be doing. And I know you all researched that and so you're 
educated in that and I appreciate that.
    I want to go over to Mr. Neumann and follow up with what 
Congresswoman Bonamici said also. Mr. Neumann, you said there 
were five agencies, and she asked were they having 
conversations about this. And you've studied these five 
agencies. Is there one person generally in charge? When you did 
this study in each of these agencies, was there one person 
accountable for progressing this issue and relaying that back 
to you and interfacing with you?
    Mr. Neumann. Well, there's a variety of offices depending 
on the agency that are involved. It's usually the, you know, 
civil rights or diversity offices that are involved in 
enforcing sexual harassment policies.
    Mr. Weber. Is there a time when you double back or do you 
just do the one study and you're done?
    Mr. Neumann. No, we have--and actually, we're continuing to 
do additional work, so we had initial conversations, we met 
with different officials at the agencies, gather documentation, 
reviewed that documentation. Now, we go back and finalize our 
analysis with them. And the last step of the process is getting 
their input so they have a chance to, you know, give us any 
additional evidence before we make any final recommendations.
    Mr. Weber. Do you give them a grade, a report card if you 
will?
    Mr. Neumann. We certainly will point out any weaknesses in 
areas that we see could be improved and make recommendations.
    Mr. Weber. And is that information made public to anybody 
who is seeking to come be employed there or come to a college, 
for example, or be a grantee? And I'll come back to you Dr.--is 
it Kass or Kass?
    Dr. Kass. Kass.
    Mr. Weber. Kass in just a minute. But do you give them a 
report card? Do you make that information public so if anybody 
wanted to go to work there knows the pervading atmosphere 
there, Mr. Neumann?
    Mr. Neumann. Well, so we wouldn't be giving a report card, 
you know, for the universities. We're focused on the Federal 
agencies.
    Mr. Weber. Well, that's what I'm talking about.
    Mr. Neumann. Right. So we wouldn't be looking--yes, so we'd 
be providing recommendations that we made publicly available on 
our website, and agencies will take action in response to that.
    Mr. Weber. OK. And then, Dr. Kass, you just said 
something--thank you for that, Mr. Neumann.
    Dr. Kass, you said something that got my attention. You 
said that the program--somebody asked you about going after the 
SEA deal, and you said it was fashioned after a U.K. program.
    Dr. Kass. That's correct. In the United Kingdom there's a 
program called Athena SWAN, and that program, which has been 
around for a number of years----
    Mr. Weber. Athena----
    Dr. Kass. Athena, hyphen, SWAN, S-W-A-N.
    Mr. Weber. OK.
    Dr. Kass. And the program exists to try to help United 
Kingdom universities diversify their faculty particularly with 
respect to gender.
    Mr. Weber. OK. And then you said one thing that caught my 
attention. I think you said that program had permeated the 
institutions in the U.K.
    Dr. Kass. Yes, many, many universities in the United 
Kingdom are either bronze-, silver-, or gold-certified. And 
indeed, for some government grants, it is required that you 
achieve a certain level of certification in order to become 
eligible to even apply for those grants.
    Mr. Weber. OK. Well, I've got other questions, but I'm over 
my time. Thank you, Madam Chair. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Tonko.
    Mr. Tonko. Thank you, Chairwoman Johnson, and thank you for 
holding this hearing and for your continued dedication to this 
critical issue. And thank you to each and every witness here 
this morning for joining and helping shine a light on this 
problem.
    Every time a woman in America is driven out of the 
sciences, it diminishes our Nation's leadership and our 
competitiveness. When sexual harassment in the fields of 
science, technology, engineering, or math is accepted or 
ignored, we lose future leaders, inventors, innovators, and 
pioneers.
    The greatness of a nation has often been measured by its 
achievements in science. If half of us and half of the people 
in future generations are held back from their full potential, 
we squander the potential of those amongst us who would have 
gone on to find lifesaving cures, make discoveries that enhance 
our lives, or change our understanding of the universe and do 
research that pushes us forward.
    We must act decisively on this issue to end the outdated 
and useless culture that allows for harassment and 
discrimination in science. There is no reason to perpetuate a 
perverse dynamic that can only serve to limit our perspectives 
and our ability to solve problems.
    As an engineer, I want to thank the Society of Women 
Engineers for their work highlighting this issue and for 
reminding us that we lose a golden opportunity when many of the 
women who want to go into engineering are thrown into a culture 
where sexual harassment is tolerated and they are undermined. 
This is indeed unacceptable.
    I have supported many pieces of legislation to diversify 
the STEM workforce and inspire young women to go into the STEM 
fields. However, if the STEM fields are not a welcome place for 
women and this culture of sexual harassment is allowed to 
continue, we will lose these very same young women whom we have 
worked so hard to inspire to go into STEM, and we will lose 
every extraordinary thing they would have achieved because we 
failed to address the problem before us today.
    That is why I'm so grateful for today's hearing, and I for 
one will continue to listen closely for opportunities and 
actions that we can take to more fully realize America's 
potential in science.
    So with that said, Dr. Morrison, in your testimony you 
mentioned your personal experience as a woman in the sciences, 
and you describe a culture that absorbs the, quote, ``exacting 
and unforgiving nature of the scientific discipline.'' Can you 
elaborate on what specific cultural challenges exist in 
academia that may contribute to a hostile environment?
    Dr. Morrison. Sure. I think, as I said both in my oral and 
written testimony, that when one, you know, asks the question, 
well, where did this start so we can get to where does it end, 
it's a very good question, where does it start, because this is 
not necessarily characteristic of other organizations. And I 
think it--and STEM--and in fact we don't see it in quite the 
same ways manifest in other disciplines within the university. 
And I think it goes back to the exacting and rigorous nature of 
how we think about the scientific process where you have a 
hypothesis and you gather data and you could repeatedly 
question and question and question to get to the truth. And so 
that characteristic where a sort of dogged pursuit of the truth 
can often be hostile.
    And certainly I had a number of exchanges during the course 
of my Ph.D. where in what should be sort of rational back-and-
forth and discourse and, you know, question and answer, it gets 
hostile because people can take it personally. So I think 
that's in part where it drives from.
    And I think the other element is that particularly in 
research universities, these are institutions that are 
extremely decentralized, so faculty do most of their teaching 
and research within the context of a department. And those 
departments are led by a department chair who's been elected 
from among the group. And so they are in some ways isolated 
from broader structures, and so they have a tremendous amount 
of autonomy. And I think that decentralization of academic 
departments where cultures get established and are allowed to 
exist without aggressive intervention is part of the issue.
    Mr. Tonko. Thank you. And, Dr. Johnson, you list a number 
of negative professional outcomes when women experience sexual 
harassment in the workplace, all of which affect retention of 
women in STEM. Having done a lot of work on that issue, does 
sexual harassment in STEM also serve as a barrier to 
recruitment of women in STEM studies and careers? And where's 
the pipeline--where in the pipeline are its impacts first felt?
    Dr. Johnson. What we know and what our study showed was 
that along the pipeline there are barriers. And we don't have 
good data regarding whether it's a barrier to entering. What we 
do have data on are the increasing numbers of women in certain 
fields entering that pipeline but then dropping out. And I 
think it's evidence that this is a pervasive problem and 
contributes to that high dropout rate.
    Mr. Tonko. OK. Thank you very much. And let's all keep up 
the fight. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Marshall.
    Mr. Marshall. Thank you, Chairwoman. My first question is 
for Dr. Johnson. The Federal definition of research misconduct 
was last revised over 20 years ago and was altered to take out 
the detrimental research practices from the definition. Is it 
time to revisit whether sexual harassment and other abusive 
behavior should be part of the Federal definition of research 
misconduct?
    Dr. Johnson. Thank you. And our report recommends that 
sexual harassment be considered as important as research 
misconduct, and it really negatively impacts the integrity of 
science. And therefore, it is time to relook at the definition 
and to look at the full definition of what negatively impacts 
and constitutes a negative impact on research, so yes.
    Mr. Marshall. OK. Dr. Morrison, would you add anything to 
that?
    Dr. Morrison. No, I think that's absolutely--it's 
absolutely essential that is added to the definition.
    Mr. Marshall. OK. My next question for Dr. Kass, in many of 
the harassment cases that have recently come to light, one 
running theme is that nondisclosure agreements and other 
privacy considerations have allowed abusers to go unchecked. In 
education, this often means perpetrators are able to go from 
university to university committing the same egregious 
behavior. How does UC Davis pilot program--check program assist 
in addressing this hurdle?
    Dr. Kass. By requiring applicants to sign a disclosure 
agreement authorizing the previous institutions to disclose to 
us any substantiated charges of sexual harassment and 
discipline. We think that we'll be able to then mitigate that 
problem.
    Mr. Marshall. So have you been able to exercise that or is 
it working so far? Is it too early to tell?
    Dr. Kass. The problem--well, it's working in the sense that 
so far we have not had anybody applying for tenured faculty 
positions who have had substantiated sexual misconduct. And we 
can't be sure why that is, but we suspect that our program is a 
deterrent to them to even apply in the first place knowing that 
if they did have substantiated sexual harassment, they would be 
forced to sign an agreement allowing their previous university 
to disclose it to us.
    Mr. Marshall. I'm trying to be the devil's advocate here I 
guess. If I was university X where there was an issue and now 
they're applying to your university, if I was at university X, 
I'd probably be consulting about 15 lawyers to say, look, I've 
got a nondisclosure agreement, and this person now is--it 
sounds like he's waiving their nondisclosure agreement. That 
seems like a hassle or an issue probably.
    Dr. Kass. Well, it hasn't come up so far, so we haven't had 
to cross that bridge. I suppose we would reach out to the 
university then to understand why they were not being 
responsive to us. Is it that they simply don't have the time or 
whether or not they are declining to respond to us for unknown 
reasons, which would raise a red flag.
    Mr. Marshall. Does anybody else have any comments how we 
overcome the hurdle? Yes, Dr. Johnson, please.
    Dr. Johnson. One thing that we have recommended in our 
report as a potential congressional action is that we really do 
away with confidentiality statements because this is at the 
heart of the problem. If there are confidentiality statements 
that are signed, then it creates many barriers, as you've 
stated. So if we can do away with those statements, we'd go 
much farther in having much more of an open book around what 
institutions can or can't say.
    Mr. Marshall. OK. Anybody else have any further comments on 
that? OK. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Dr. Foster.
    Mr. Foster. Thank you, Chairwoman Johnson, Ranking Member 
Lucas, and our panelists.
    You know, this is an important subject. Throughout my 25-
year career in physics, our field always struggled with gender 
diversity, and I always wondered what fraction of that struggle 
might be due to harassment and discrimination. It's a very 
difficult question to answer, as Dr. Morrison mentioned.
    You know, in science, you know, everyone talks over 
everyone else, you know, and, you know, it's just--it's the way 
it is, and that culture, you know, lands particularly hard 
perhaps on women who choose not to be as aggressive.
    And my first question, Mr. Neumann, it relates to table 3 
on page 8 of your written testimony. The statistics on this are 
small, but it seems like there are significant differences in 
the rates of reported sexual harassment complaints received by 
different agencies. And I was wondering if you can say 
something--does this just reflect difference in the number of 
grantee institutions, a difference in the number of potential 
targets, the number of different reporting criteria, or what 
other factors?
    Mr. Neumann. Well, I think part of the issue is that the 
complaints don't always reach the agencies. A lot of them are 
addressed at the university level or they go to the Department 
of Education, so they go through a different process. The ones 
that are reaching the agencies are going to be limited based on 
the nature of the oversight.
    But NSF, as we noted, had more complaints, and that was 
because of a change in agreement they had with the Department 
of Education which previously handed their complaints for them. 
And now NSF is handling those directly, so that number went up 
recently.
    Mr. Foster. Yes. And are you optimistic that you'll be able 
to come up with standardized reporting criteria so we'll 
actually be able to look across all the different agencies and 
see if there is potentially a cultural problem in one of the 
other agencies?
    Mr. Neumann. We'll definitely continue to look at the 
information-sharing. It's an area that we believe there is 
likely to be improvements that we'll recommend because the 
agencies themselves have noted that they would like to be able 
to share more information. They haven't really identified any 
legitimate barriers yet that we could see to that information-
sharing, so we want to continue to pursue that in the rest of 
our analysis.
    Mr. Foster. Are there appropriate workshops that are 
attended by the relevant people who could standardize the 
policies so at least we could have some idea, you know, to have 
a level look at the different agencies?
    Mr. Neumann. Each agency is taking different steps, you 
know, that some are creating working groups, others are working 
with each other, you know, on a bilateral basis to kind of 
coordinate on different policies, so there's definitely a lot 
of workshops. And we'll include some of that information in our 
final report.
    Mr. Foster. Thank you. And I guess this is a question for 
the whole panel. Is the line drawn--both for harassment and 
discrimination in academia the same as the lines that are drawn 
in business? You know, for example, in big law firms, you know, 
there are very, very explicit, you, rules and training that, 
you know, the associates at the law firms have to take, you 
know, when, you know, two lawyers at a firm develop a 
relationship, there are very explicit rules on--they have to 
report it, they have to, you know, deconflict any legal 
problems, and so on, and as well as laws about harassment and 
so on, or rules about harassment. I'm not aware that there are 
such explicit rules about reporting it when someone leaves a 
law firm because of some trouble. They may or may not leave 
quietly.
    I was wondering, are the rules in academia comparable, more 
lax, or more stringent than those in general business?
    Dr. Morrison. I would say that the culture is very 
different if you compare a law firm with a university where 
tenured and tenure-track faculty members have a shared 
governance role in the institution. That structural difference 
I think has led to differences in how the two institutions, a 
law firm and a university, address these things. I think we're 
working toward having the kinds of policies and procedures that 
corporations and businesses have, but it is complicated by the 
role and the fundamental structure of the university where 
faculty are deeply engaged in the process. I think we're 
moving--we strive toward that, but I think there are real 
differences.
    Mr. Foster. Dr. Johnson?
    Dr. Johnson. There are other differences. For example, the 
very close and dependent mentor-mentee relationship in which 
the mentee or advisee at different levels is fully dependent on 
the mentor or the senior faculty member for funding, for 
mentorship, and that frequently goes unchecked. And so in the 
report we really recommend that this is an opportunity where 
academia is quite different, and it's an opportunity for us to 
really think about diversifying that model, widening that 
mentorship circle, changing the models of funding so that, in 
addition to all of the other recommendations, we're also 
changing some of the fundamental structures that we think are 
very important in leading to harassment.
    Mr. Foster. Thank you. And I guess I'm out of time here and 
yield back.
    Chairwoman Johnson. Thank you very much. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Madam Chair, for holding this 
important hearing, and thank you to our panel today for your 
testimony and your tireless work to shed a light on this 
important issue.
    So little bit of my background, I, prior to this job, ran a 
technology company, small startup run by two incredible female 
entrepreneurs, one, our CTO was from MIT, and we used to talk a 
lot about this issue specifically. And I know we've made 
progress, but it's still unbelievably frustrating and I can't 
thank you enough for all your work. And I'm glad we're here 
today.
    And I want to first direct my first question to Dr. 
Johnson. In your written testimony you recommended academic 
institutions diffuse the hierarchical and dependent 
relationship between trainees and faculty. You were just 
talking about that. Could you speak as specifically as you can 
on how we could actually do that. How can we incentivize that 
as Congress? Because it's such a unique and kind of odd 
structural arrangement that hurts us here.
    Dr. Johnson. Yes. So in our report, we recommend the 
widening of that mentorship circle and really thinking about 
widening how funds are granted. What can be done through 
Congress and through our funding agencies is to set certain 
expectations for how grant-receiving institutions must create 
these opportunities for changing the paradigm.
    Mr. Gonzalez. Great.
    Dr. Johnson. And this is another opportunity obviously for 
research.
    Mr. Gonzalez. OK. But I'm trying to figure out how we 
decouple--because there's this notion that you're almost 
beholden to your superior no matter what in the academic world, 
so how do you kind of get around that or how do we----
    Dr. Johnson. Yes.
    Mr. Gonzalez [continuing]. Decouple those?
    Dr. Johnson. So what we recommend in the report is that you 
will always have a relationship----
    Mr. Gonzalez. Right.
    Dr. Johnson [continuing]. With a senior faculty member or 
mentor, but that should not be singular----
    Mr. Gonzalez. Yes.
    Dr. Johnson [continuing]. That there's an opportunity here 
to broaden that mentorship circle to create very, very 
intentionally a different model of mentorship so that a trainee 
is not alone in that singular relationship.
    And second, the funding piece is also quite important----
    Mr. Gonzalez. Right.
    Dr. Johnson [continuing]. And what we recommend is that we 
consider potentially pooling funds and having funds come 
centrally to the trainee as opposed to being directly handed 
over or that direct one-on-one dependency.
    Mr. Gonzalez. Great. And then another one of your 
recommendations has to do with better protecting claimants from 
retaliation.
    Dr. Johnson. Yes.
    Mr. Gonzalez. Could you maybe go into that a little bit as 
well, you know, specifically how can we do that?
    Dr. Johnson. Yes. So a lot of what H.R. 36 is recommending 
in terms of helping to create not only a different culture but 
also helping to do the research that allows us to better 
evaluate some of the interventions we recommend I think is 
important.
    The second thing is to really give the target of sexual 
harassment more agency in the process. And what I mean by this 
is really thinking about other ways that the target can have 
control over reporting. We know that there's underreporting. 
How do we make reporting safe? How do we create greater 
opportunity for reporting that is confidential? How do we also 
look at opportunities to report where a victim may not have to 
come forward but can actually record the incident, timestamp 
it, and when they're ready come forward. So the more agency we 
can give a target, the more we believe will come forward.
    Mr. Gonzalez. Great, thank you. And then, Dr. Kass, I just 
want to drill down on Athena SWAN a little bit. You were 
mentioning it earlier. Can you tell me about how that program's 
working today and what the interplay is between kind of the 
government versus the institutions themselves?
    Dr. Kass. Well, from what I can see from across the 
Atlantic it seems to be working fairly well. Universities 
across the United Kingdom want to become certified through 
Athena SWAN. It has now spread to Australia as well. So it 
seems to have become part of the United Kingdom's fabric. And, 
as I said, there are now some grants that universities would 
otherwise not be eligible to apply for were they not showing 
some measure of success in creating a more diverse and 
equitable environment for female faculty.
    Mr. Gonzalez. Fantastic. Thank you again for your time and 
your important work, and I yield back.
    Chairwoman Johnson. Thank you very much. Mrs. Fletcher.
    Mrs. Fletcher. Thank you, Chairwoman Johnson. Thank you for 
holding this hearing and Ranking Member Lucas, and thank you to 
all of our witnesses who are here testifying. This is a really 
important topic.
    And folks here have heard me say before that I'm the aunt 
of a niece who wants to grow up to be an engineer, and I want 
to make sure that path is clear on the way, as well as in 
arriving.
    And we've had the privilege on this Committee of hearing 
from many accomplished, incredible women, including those on 
our panel today, who are in the sciences, and it's critical 
that we create environments where we can do that.
    So my questions are really geared around how do we in 
Congress help combat some of these challenges? And I think 
that, as a lawyer, one of the things that stuck out to me, Dr. 
Morrison, was your testimony that H.R. 36 is a good step but 
that we need to look at the conflicts and kind of ameliorate 
some conflicts between the existing laws and the requirements 
under H.R. 36. And I wonder if you could just expand on that a 
little bit for us of the things that you see that are 
potentially intentioned that we might address now.
    Dr. Morrison. Yes. I think there are a variety of things. 
We want to make sure that the guidance from the Federal 
Government and all the different areas is consistent and clear 
so that, as we go then to communicate to our decentralized 
organization, that we can talk with one voice about particular 
things, and that, you know, one of the critical issues is 
around H.R. You know, we've talked about the policies that are 
standard as part of H.R. contracts. And while we don't have 
necessarily confidentiality agreements, it is the nominal 
expectation that personnel matters are held in confidence. And 
I think to move away from that basic expectation of 
confidentiality is an important one.
    Mrs. Fletcher. OK. And does anyone else on the panel have 
additional suggestions on potential conflicts or issues that we 
should address now in this bill?
    Dr. Johnson. Thank you, Representative Fletcher. Just a 
couple of additions. I already talked about the confidentiality 
agreements. I think there are a couple of others that we 
recommended in the report. Really banning mandatory arbitration 
clauses could be another, allowing lawsuits to be filed against 
alleged harassers directly instead of or in addition to 
academic employers, so I think these are another couple that 
might be helpful.
    Mrs. Fletcher. Thanks. That's helpful. Anyone else?
    Well, then, I also want to follow up, Dr. Johnson, on your 
testimony. And Mr. Gonzalez's questions touched on it as well, 
but I'm really interested in your conversation about really 
rethinking the funding system and how we do that, and so I 
don't know if you have in mind or if a working group has come 
up with sort of alternative funding models, but it seems like 
there's an opportunity to really rethink at a big level how our 
Federal funding is administered and what we could do or what we 
could require to come up with really alternative models. So I'd 
love your thoughts on that.
    Dr. Johnson. So our report did not go into detail that was 
beyond the scope. We did make the recommendation, and I do 
think that in H.R. 36, in its focus on funding research in this 
area, there's the opportunity to really take this up as we 
could test models and then determine which ones are the best.
    Mrs. Fletcher. Terrific. Does anyone else have any thoughts 
on the funding models to share?
    Otherwise, just more broadly I guess, do you all have any 
other recommendations for us about how we as lawmakers can 
tackle the problem of sexual harassment in the sciences outside 
of this particular piece of legislation or suggestions for us? 
Mr. Neumann, have you seen anything in the scope of your report 
that you think--outside of what we're talking about?
    Mr. Neumann. So I--there's a couple areas that we're 
looking at that do--I think the bill would address like, you 
know, kind of the policy--looking at the policies and the 
information-sharing. We're going to continue to look at 
agencies' efforts to do compliance reviews and the 
investigation process, so there may be other things coming in 
under that but nothing that I see that would be--that isn't, 
you know, envisioned in some of the bill right now.
    Mrs. Fletcher. Dr. Johnson?
    Dr. Johnson. Just briefly, as our report had recommended 
the use of high-quality climate surveys, this is in the bill, 
but I do want to state we have not discussed yet today that 
this is very important in terms of really having high-quality 
tested climate surveys and sharing of that information, making 
it public so we can all truly get better at understanding what 
are the best methods.
    Mrs. Fletcher. Thank you very much. I yield back my time.
    Chairwoman Johnson. Thank you very much. Mr. Baird.
    Mr. Baird. Thank you, Madam Chairwoman and the Ranking 
Member Lucas and all the witnesses. I appreciate you being here 
today.
    You know, the National Academies have outlined several of 
the factors that contribute to sexual harassment in academia. 
These include a culture of symbiotic compliance with Title IX 
and Title VII were the institutions are great at checking legal 
boxes but maybe not able to reduce and eliminate sexual 
harassment.
    So my question to all of you is how can we in the Federal 
Government, as well as you in academia, ensure that the spirit, 
not just the letter of the law, is being adhered to? Start with 
you, Mr. Neumann.
    Mr. Neumann. So I think, you know, one area that the 
agencies, you know, can look at is when they do compliance 
reviews at universities, you know, they can--those are pretty--
can be comprehensive and look at best practices, as well as 
deficiencies. But I think even more importantly going back and 
looking at are the policies they have in place really getting 
at the issue? So I think that requires an evaluation of the 
effectiveness of the policies. If agencies were to do that, 
they may identify those things that'll--that are more useful in 
combating the sexual harassment issue at universities.
    Dr. Johnson. Again, looking at the policies at the grant-
receiving institutions is what our report recommended, 
particularly around the transparency and accountability of 
policies. Ensuring that there are very transparent policies not 
only regarding reporting but also regarding what are the 
consequences for varying levels of sexual harassment if one is 
found in violation of policy. I think the greater the 
transparency, the greater the trust in the organization, and 
that is what the evidence supports.
    Dr. Morrison. To build on those things, I would add that 
leadership both at institutions where we continue to emphasize 
the importance of this and how we select deans and leaders 
within the university to ensure that women and people of color 
are more represented than they are now is critical and that 
the--you know, you asked sort of more broadly than H.R. 36 that 
the leadership and guidance out of the Federal Government more 
broadly, including the Department of Education, would speak to 
the importance of supporting universities and working on this 
critical issue.
    Dr. Kass. And I would just point out that there are other 
organizations that are also working on this, and it would be 
great for people in the government to work with those 
organizations. I'll give as an example of that the AAU's 
(Association of American Universities) advisory board on sexual 
harassment and gender discrimination, which is comprised of 
leaders of all levels at the university who encounter issues 
related to sexual harassment firsthand. You know, this--they 
have this advisory board in order to come up with new ideas, 
ideas for research, ideas for prevention, and will be meeting 
on a regular basis to come up with what we hope will become 
best practices.
    Mr. Baird. Thank you. My last question because we only got 
about a minute or so--and I'm glad you brought up the issue 
about gender because, as we previously noted, women hold only 
24 percent of the STEM jobs. This creates an inherit imbalance 
of power in this field. So my question to you folks is would 
you care to comment on if and how a change in the gender 
balance in STEM fields, specifically one in which more women 
were employed in STEM careers, could contribute to decreased 
harassment?
    Dr. Johnson. Well, our report clearly states that the data 
point to the male-dominated fields. Those that are most male-
dominated experience greater rates of sexual harassment. So, as 
Dr. Morrison indicated, really diversifying not only the 
pipeline but really diversifying the leadership is critically 
important to decreasing rates of sexual harassment.
    Mr. Baird. I think I'm out of time, so I yield back my 
time, Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. Casten.
    Mr. Casten. Thank you to the Chair. Thank you to all the 
witnesses.
    There's really a larger group that I'd like to thank. And 
it strikes me that the stuff we're talking about today is not 
particularly new. It's been out there for a long time. We just 
kind of accepted it as part of the background not necessarily 
willingly but we did accept it.
    And the--what's new in the moment is that we are talking 
about this ubiquitousness of sexual harassment in a whole lot 
of workplaces, academia and STEM not included. And as the old 
saying goes, admitting you have a problem is the first step. 
We're not done yet, but we're at least starting on a road to 
recovery.
    And we wouldn't be there but for all the--you know, the 
tremendously brave women in male-dominated fields who stood up 
in this Me Too movement and said we got to stand up. And 
they're really the ones that we owe the most thanks to today, 
sort of the silver lining of a lot of the negative news in our 
moment right now.
    Our job now is: Number one, to believe them, and number 
two, to make sure that we're establishing policies that 
demonstrate our commitment to ensuring a workplace where 
everyone can feel comfortable, valued in their roles as 
professionals. In going through and reading the background, my 
first job out of college was doing cancer research, then spent 
a couple years doing basic research on biofuels development. 
And to the best of my knowledge those were all very tolerant 
workplaces, but it's not lost on me that most of my colleagues 
were overworked, overcaffeinated, young, single men. And the 
bravery that's required for women to enter that environment is 
certainly something I appreciated.
    And I was struck reading Dr. Johnson's testimony coming in 
that maybe my experience wasn't typical. I think you said that 
over 50 percent of women in academic environments and somewhere 
between 20 and 50 percent of students in higher education 
experienced sexual harassment at the hands of their colleagues, 
mentors, faculty members. Maybe our experience was typical and 
I didn't know about it.
    But what I'm struck by in the moment is, how do we catalyze 
that fix? Because even with the best of intentions, I'm 
sympathetic to the bravery that's required for the first woman 
to enter a lab that's dominated by men or the first two to come 
in.
    And so, Dr. Johnson, what steps would you recommend--I 
don't want to say to break the cycle but how do we sort of 
create the activation energy to catalyze that to make it easier 
for the next generation that comes through and not make this 
such an act of bravery every time?
    Dr. Johnson. As we look at the Academies' report and we 
look at what's happened in the past year since the publication 
of the report, I think we've seen an activation, and we've seen 
actions by NSF that we've talked about. We've seen actions by 
NIH, and they're further looking at their policies on 
extramural research. We've seen the various societies, 
professional societies enact codes of conduct and take even 
greater steps. We've seen the National Academies themselves 
develop new codes of conduct and also take a number of steps. 
And we've seen the National Academies develop an action 
collaborative that has brought together over 50 universities 
and colleges to come together to address this issue to share 
what are--I won't say best practices--to share practices and do 
work together so that we can combat this issue.
    So what I would say is that I think there has been an 
activation. This has been a complex problem. We have not seen 
any decrease in the rates of sexual harassment over time. And 
H.R. 36 is very important in this. It is a multifaceted problem 
that is going to require constant attention and a number of 
inputs. And I think that the Federal funding agencies, as we 
have recommended, play a very important role in this. So it's 
going to be really continuing the work, but I do believe that 
what we see is an activation over the past year.
    Mr. Casten. Yes, go ahead, Dr. Morrison.
    Dr. Morrison. I would add the other thing I think is 
catalyzing some movement is the next generation of junior 
faculty. There are a number of new up-and-coming faculty who 
just don't accept this old culture, and they are working to 
establish welcoming and collaborative environments in their 
laboratory. And that they are, through their actions and who 
they select to be their students and their postdocs and how 
they interact within the context of their labs, they are 
changing the culture. And I think there's a tremendous amount 
that is positive and hopeful about that. They look at the world 
differently, and it's very good.
    Mr. Casten. Thank you. I see I'm out of time, but to date 
my musical preferences that the kids are all right. Thank you, 
and I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Crist.
    Mr. Crist. Thank you, Madam Chair and Ranking Member Lucas.
    I was curious. Three of you are at academic institutions 
presently. Is it common that such institutions have 
confidentiality statements for incoming employees to sign?
    Dr. Morrison. At Boston University it is presumed part of a 
personnel agreement. It is not an explicit element of a 
contractual relationship, but we're--we presume that our 
contractual relations with faculty and staff are confidential.
    Mr. Crist. But do the all have to sign a confidentiality 
agreement?
    Dr. Morrison. No, they sign a contract that comes with the 
presumption that it's confidential.
    Mr. Crist. So the presumption is written out in it?
    Dr. Morrison. No, it is not. It's----
    Mr. Crist. How is it presumed?
    Dr. Morrison. Through practice, that we would not--that we 
would not disclose the details of a personnel interaction or 
personnel matter.
    Dr. Kass. We do not have them, and if we have substantiated 
sexual harassment, we disclose it under a Public Records Act 
request.
    Dr. Johnson. We do not have confidentiality agreements at 
Wellesley.
    Mr. Crist. So why are we discussing them? I mean, I know 
you were asked a question about it, so that's the short answer, 
but if your institutions don't have them and only one of them 
presumes them, is it an issue or not?
    Dr. Johnson. From our data that we've looked at, it's one 
thing for an institution to have them. It's another thing when 
episodes of harassment occur and a perpetrator is found in 
violation to have a very specific confidentiality agreement 
signed having to do with the finding. So, as I'm talking about 
confidentiality and outlined confidentiality agreements, they 
pertain to sexual harassment.
    Mr. Crist. Which I think is great. You know, transparency 
should be the order of the day. What does it say, that the best 
disinfectant is light. So I guess what I'm curious about is why 
would there even be a presumption at, say, Boston University of 
a confidentiality within a contract for a new employee? What is 
it that is trying to be protected or not disclosed?
    Dr. Morrison. Well, that is--my understanding is that's 
generally standard practice.
    Mr. Crist. Yes, why? Should it be, given the topic we're 
talking about?
    Dr. Morrison. Should it be is an important question, and I 
think our conversations go to the question of should it be. And 
we are--I think all of the--everything we've learned from the 
difficult situations we have faced suggested it should not be. 
However, that has to be balanced against, you know, an 
individual's right to privacy in their contractual dealings 
with their employer, so I think there are elements that need to 
be balanced in sorting through it.
    Mr. Crist. Well, of course, but we're talking about sexual 
harassment here today, right? Is there any kind of right to try 
to protect from disclosure of sexual harassment at an 
institution?
    Dr. Morrison. Yes. No, I don't think there's a right to 
protect--to keep sexual harassment silent. No, I don't agree 
with that.
    Mr. Crist. Great. That's good. So I guess the presumption 
in your contractual situation you would expect it would be 
something that would be not presumed in the near future?
    Dr. Morrison. Yes, we--this is--as we examine our policies 
and practices, this is an issue that's at the top of the list.
    Mr. Crist. Great. Thank you very much. Thank you, Madam 
Chair.
    Chairwoman Johnson. Thank you very much. Ms. Stevens.
    Ms. Stevens. Thank you, Madam Chair, and thank you to our 
witnesses for today's very important hearing.
    Dr. Morrison, just to kind of pick up on the line of 
questioning that we were just having, you--in your hearing you 
mentioned the importance of inclusion policies as part of 
broader cultural change, and I think that's what we're all here 
talking about is we're talking about a culture, you know, that 
can't necessarily always be pinpointed on one individual or one 
group. Certainly our institutions set a tone for culture, they 
set a tone for a way of life, and they have a really important 
role to play.
    And we commend our universities, we commend the leadership 
that they take in terms of listening and engaging the students 
to faculty to addressing the tough topics. We have a rich 
history in this country of change coming from universities, 
change coming toward some of our tougher social topics.
    So what other concrete policy changes have been made to 
consider this, you know, greater diversity and equity charge? 
I'm thinking about child--you know, paid family leave, you 
know, increasing the wage, you know, things that like sometimes 
are often the barriers to entry that, you know, you might be 
working on that we haven't yet discussed here today.
    Dr. Morrison. Yes, there are a variety of things. And I 
agree with you; it is a whole-scale cultural change. 
Universities are some of the oldest institutions and--globally, 
and so the--you know, they're very deeply grounded in the 
history and a culture that is dominated by white men. And so 
there are a lot of changes that are necessary as women and 
people of color enter the academy.
    And so we've been working on a number of policies around--
one of the more recent ones is that we have mandated vacation 
time for our doctoral students, which seems an odd thing, but, 
you know, the way graduate students are funded on grants, it's 
not clear that they are necessarily entitled to vacation, so 
that's an example where we thought it was important to call out 
that--the students who work extremely hard, and the expectation 
is that, you know, they're working long hours but that vacation 
is a normal part of what is to be expected. And we've 
instituted a number of policies around family and childbirth 
leave and an array of different policies.
    Ms. Stevens. Thank you. And I'd also just like to remark 
how significant it is that today's hearing is being Chaired by 
our incredible Chairwoman Eddie Bernice Johnson. It's truly a 
marker in history that we're having this discussion here in 
2019 in the 116th Congress commenting a very tough topic. 
Obviously I'm a proud cosponsor of H.R. 36, the Combating 
Sexual Harassment in Science Act, that's being led by our 
Chairwoman, and we thank you for your insights on this 
important work.
    I yield back the remainder of my time.
    Chairwoman Johnson. Thank you very much. Ms. Wexton.
    Ms. Wexton. Thank you, Madam Chair, and thank you to the 
witnesses for coming today to testify before us.
    Mr. Neumann, one of the key findings from the 2018 National 
Academies' report on sexual harassment was that agencies and 
universities have to move beyond a culture of just bare 
compliance with Title IX in order to effectively address sexual 
harassment. Have any of the agencies or universities contacted 
you about that, about what they might be able to do or sought 
your guidance and advice about things that they could do?
    Mr. Neumann. Yes. Even just in the course of our review 
we've been seeing agencies taking additional actions, you know, 
toward some of the recommendations in the National Academies' 
report. And, for example, all the agencies have updated their 
definition of sexual harassment to include gender harassment, 
which the National Academies' report, you know, has as one of 
the most common forms of sexual harassment. So we're seeing 
some positive steps. That doesn't mean there isn't room for 
improvement, but definitely the agencies are taking this 
seriously and want to do more. And I think with our review it 
can maybe identify some areas that they might want to target to 
improve.
    Ms. Wexton. OK. And I guess with agencies being so focused 
on--and universities being focused on Title IX now with what, 
you know, I certainly perceive as the potential erosion of 
Title IX, the--with the proposed overhaul and regulations that 
were released by the Department in November of last year, 
that--Dr. Kass, you talked about what the UC system has done 
that you guys have taken strong and public stance against 
certain aspects of the proposed overhaul of Title IX. Can you 
talk about the impact of the proposed regulations at UC Davis 
and the other campuses in the UC system and what you all have 
done in response to them?
    Dr. Kass. Well, my understanding is that they have not been 
finalized yet, so at the moment we're simply resisting them 
because we think that it will have a very negative impact on 
reporting incidents of gender discrimination and sexual 
harassment were these to go into place, particularly if victims 
were to be confronted by the alleged perpetrators. So we think 
it would actually inhibit the reporting.
    Ms. Wexton. So how will your institutions then ensure that 
the proposed regulations don't weaken the policies you already 
have in place? Are you just participating in the rulemaking 
process in the hopes that it does not become final?
    Dr. Kass. Yes, the University of California systemwide is 
participating in that process. It's not being done campus by 
campus but rather for the entire system.
    Ms. Wexton. OK. And, Dr. Morrison and Dr. Johnson, I'd be 
interested to hear your thoughts on these proposed regulations 
and the impacts that they would have in your campuses to your 
ongoing efforts to address sexual harassment.
    Dr. Morrison. Yes, I would support what Dr. Kass said, that 
we're concerned about the effect it will have on reporting. And 
we've been very engaged in responding to the call for input 
with the hope that the regulations, when they do come out, will 
not reflect what we saw at the outset.
    Ms. Wexton. Very good. And, Dr. Johnson?
    Dr. Johnson. So I'm going to answer this question as 
President of Wellesley College to say that there are several 
issues. One, I would agree both with Dr. Morris and Dr. Kass 
around the significant concern on reporting. I think the other 
concerns are the definition of harassment. That is far more 
limited. And also the lack of ability to address cases of 
harassment that have occurred off of one's campus.
    So these are all very significant issues, and we have 
participated with a number of organizations to provide input, 
as well as my writing a letter individually, having served as 
the co-chairperson of the National Academies' committee.
    I do want to add, though, that with all of the difficult 
issues with this proposed set of rules is that the work that is 
recommended in the report and that needs to move forward 
aggressively does have to do with the culture, does have to do 
with all of the other issues we have discussed today and have 
been really outlined in the report--changing leadership, 
diversity, inclusion, and so much more.
    Ms. Wexton. Very good. Thank you very much. I'll yield 
back.
    Chairwoman Johnson. Thank you very much. Mr. Beyer?
    Mr. Beyer. Thank you, Madam Chair. And thank you all very 
much for being part of this.
    Dr. Johnson, I was Wellesley spring 1971 living on Beebe 
Hall, which is a----
    Dr. Johnson. You're one of the campus exchange.
    Mr. Beyer. Yes, exactly. Yes, there were 19 of us men on 
campus with 2,000 women. It's the first time in my life I got 
over being shy. It was a wonderful experience.
    And I'm really fascinated by this, and especially the 
notion of gender harassment, which I confess is a new idea for 
me but easy to relate. My oldest daughter is in the automobile 
business with us, and when she went to the general management 
school, 2 women with 52 guys, I think mostly what she dealt 
with for that whole year was the gender harassment, not sexual 
harassment--people weren't hitting on her--but just a 
completely different perspective, where my next daughter, who 
went to the coding course for 12 weeks, again, 1 woman and 27 
guys, and there was a sense that she couldn't compete or that 
she was different even though she was smarter than the 27 guys.
    How do you address gender harassment in a meaningful way? 
And I was particularly interested in the whole notion in your 
study about hierarchical power structures making gender 
harassment easier to present itself, more difficult to 
overcome.
    Dr. Johnson. Yes. Thank you for addressing this important 
issue. Gender harassment is pervasive. And from the data that 
we looked at and presented in the report, again, culture change 
is really the predominant focus and way forward. Training is 
also important as we look to change behavior. And, in addition 
to more general training, a certain type of training called 
bystander training. Harassment not only affects a particular 
targeted victim, but more ambient harassment also impacts those 
who experience it and experience it negatively. And giving 
those people, the bystanders, the power and agency and the 
training to come forward, report, and really look forward and 
give them an ability to be part of that solution is also, from 
the data, quite important.
    Mr. Beyer. How different is it when a woman is the leader, 
is at the top of that hierarchical structure?
    Dr. Johnson. Well, the data show that when you have a more 
diversified leadership structure, you will also have more 
diversified personnel. So to say that any one person correlates 
with a differnce--I think we don't have those data, but what we 
can look at is overall when there's diversity at the top that 
these issues are experienced differently.
    Mr. Beyer. You know, one of the things that my wife picked 
up at the World Economic Forum 7 or 8 years ago was the notion 
of certifying companies for their women-friendly policies, 
essentially, the economic dividend from having the gender 
diversity within a company, much like LEED (Leadership in 
Energy and Environmental Design) certification for buildings. 
Is this something that would apply in an academic setting, too, 
where you say Boston University is a great place for women to 
work and to lead in this study?
    Dr. Morrison. Yes, I think it could. There are a variety of 
rankings, you know, best place to work in Boston or company 
friendliest to LGBTQIA (lesbian, gay, bisexual, transgender, 
questioning, intersex, and asexual (or allies)) folks, so there 
are a variety of different kinds of competitions for 
recognition, and I think that is one that could be very useful.
    Mr. Beyer. OK. Mr. Neumann, the--they pointed out that a 
number of the agencies had 4 or 5 gender complaints, but the 
National Science Foundation had 14. I know my pal Dr. Foster 
asked about that earlier. Did you see anything systemic within 
the National Science Foundation that would make you more likely 
to experience gender or sexual discrimination?
    Mr. Neumann. No. I think the numbers are overall relatively 
small and are more reflective of a change in the way the 
investigation complaints were handled. Prior to 2017, the 
Department of Education handled it on behalf of the National 
Science Foundation. Now, they're--the NSF is handling it 
themselves, so the numbers have recently increased. Those are 
all, I think, in the last year or so because of that change. 
But no, there's nothing--and we'll continue to look at the 
number of investigations, as well as a little more information 
behind those investigations to find out, you know, what the 
numbers mean.
    Mr. Beyer. Great. I know one of the big things that you all 
pointed out was how important it was to bring public attention 
to this, so I really want to thank our Chairwoman for having 
this hearing to do exactly that.
    Chairwoman Johnson. Thank you very much. I think that ends 
our list of witnesses. Let me express my appreciation to this 
outstanding panel, and thank you for being here today.
    The record will remain open for 2 weeks for additional 
statements from the Members or any additional questions the 
Committee may ask of the witnesses.
    The witnesses are now excused, and the Committee is 
adjourned.
    [Whereupon, at 11:53 a.m., the Committee was adjourned.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
